No.
IN THE

SUPREME COURT OF THE UNITED STATES
KAREN KHAN,
PETITIONER
V.

UNITED STATES,
RESPONDENT

Application Pursuant to Rule 33 (1) (d) of the Rules of This Court
CHIEF JUSTICE JOHN G. ROBERT

Karen Khan, pro se
P.O. Box 1991
Poughkeepsie, NY 12601
Phone: 845-233-0744
karenkhanlaw@hotmail.com

SUPREME COURT OF THE UNITED STATES

Karen Khan,
Petitioner

)
)

No.

V.

)

Chief Justice John G. Roberts, Jr.

U.S.,

)

APPLICATION PURSUANT TO

Respondent

RULE 33 (1) (d)

)

Plaintiff will file a Petition for a Writ of Certiorari. This Court has jurisdiction
under 28 U.S.C. 1254 (1). The filing deadline for the Petition is July 8, 2019.
U.S. Court of Appeals for the Federal Circuit issued its decision on February
5, 2019, and an En Banc Order denying Rehearing and Rehearing En Banc,
was issued on April 10, 2019. Both these Orders are attached herewith. Also
enclosed herewith is a draft of the Statement of the Case.
Plaintiff requests leave to file a Petition for a Writ of Certiorari up to 1500
words in excess of the word limit of 9000 words set in Rule 33 of the Rules of
this Court. Since FBI is continuing with its devious activities, Plaintiff
requests that this Application be decided expeditiously which will allow her to
file the Petition, shortly thereafter.
The Court should grantIhisApplication for good cause as shown hereunder;
This appeal involves two circuit splits on two separate issues. First, it involves
at least a three-way circuit split, on whether intra-corporate conspiracy

114

doctrine applies to §1985 conspiracies. Second, it involves a two-way circuit
split on the issue of waiver of sovereign immunity, where a statute reads
"person" to include a government or government agency. Bormes v. United
States, 759 F.3d 793 (7th Cir. 2014) held when a statute [FCRA] defined
"person" to include the federal government, and the remedy provision applied
to "any person," sovereign immunity. is waived for damages against the
government. Whereas, Daniel v. National Park Service, 891 F.3d 762, 776 (9th
Cir. 2018) held that when a statute [FCRA] broadly defines person to include
"government or governmental subdivision or agency" and separately provides
remedial provision against "any person" who violates the statute, sovereign
immunity is not waived for damages against the government.
5. Further, this appeal requires an answer to the following precedent-setting
questions of exceptional importance:
.

Federal Circuit's Application of the Plausibility Standard to Weigh
Evidence Against Plaintiff Conflicts With This Court's Precedent In
Twombly and Iqbal As It Nullifies Procedural Due Process Under The

Fifth Amendment To The U.S. Constitution;
.

U.S. Court of Federal Claims Has Concurrent Jurisdiction With A U.S.
District Court Over a RICO Action Against the U.S. Pursuant To This

--.Cou.tsPr.ecede..t-I-nTafflinv-Levitt

........................

-

A Declaratory Judgment Is A Proper Vehicle For This Court To Uphold
A Woman's Equality To A Male Man Under God's Word And The Fifth

214

and Fourteenth Amendments To The U.S. Constitution To Effectively
Abolish The Class-Based Invidiously Discriminatory Animus Against
Women Entrenched In America's Tribal Culture;
.

This Case Is A Proper Vehicle Through Which FBI Should Be
Dismantled In View Of Its Unlawful Use Of Its Internal Policy
COINTELPRO Against U.S. Citizens Especially Women Because FBI
Employees Are By Law Public Servants And Not Public Rulers To
Control And Oppress U.S. Citizens In Conflict With The Fifth
Amendment To The U.S. Constitution;

.

Is This Case A Proper Vehicle For This Court To Permissibly Fashion A
Remedy To Vindicate Federal Rights Under Fifth And Fourteenth
Amendments To The U.S. Constitution. When As In The Present Case
There Is An Ongoing Violation Of Equal Protection Of The Laws;

.

Federal Circuit Committed An Egregious Error Because It Is In
Defiance of All Relevant Statutory Provisions And Court Holdings On
The Subject Of All Material Elements Required To Sustain Recovery
Under Civil Rights And Civil RICO Statutes;

.

Is Civil Rights Statute 42 U.S.C. §1985 Read In Conjunction With 28
U.S.C. §1343 (a)(1) and (2) and 42 U.S.C.

§

2000e(a), Money-Mandating

_AgainsUhe_U.S.ANDMoneyManda.ti.ngAga.i.nst_TheJSBu.rsuan.tto
U.S. Supreme Court' Precedent In Monell v. DeparEment of Social Services of
City of New York;

314

.

This Case Is An Ideal Vehicle For This Court To Establish Solid Legal
Foundations Under Amendment Fifth To The U.S. Constitution For
Acceptable Surveillance Practices While Upholding Its Own Ruling In
Ziglar That National-Security Concerns Must Not Become A Talisman
A "Label" Used To "Cover A Multitude Of Sins" Especially When
"Danger Of Abuse" Against Women Is Even More Heightened Given The
Judiciary's Failure To Define "Security Interest" In Domestic Cases.

WHEREFORE, in view of the two Circuit Splits and the multiple number of
questions of exceptional importance, involved in the present case, it is respectfully
requested that the Court grant Plaintiff leave to file a Petition for Writ of Certiorari
with up to 1500 [Fifteen Hundred] words in excess to the word limit of 9000 words
set in Rule 33 of the Rules of this Court.

May 24, 2019
Karen Khan, pro se
P.O. Box 1991
Poughkeepsie, NY 12601
Phone 845-233-0744

414

Case: 18-2196

Document: 34 Page: 1 Filed: 04/10/2019

NOTE: This order is nonprecedentiaL

&ntteb 'tate tourt of ppeat
for the jYebExai QEirtuit
KAREN KHAN,
Plaintiff-Appellant

V

V.

UNITED STATES,
Defendant-Appellee
2018-2196
Appeal from the United States Court of Federal Claims
in No. 1:18-cv-00609-CFL, Judge Charles K Lettow.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

•
Before PROST, Chief Judge, NEWMAN, LotJRIE, DYK,
MooRE, O'MALLEY, REYNA, WALLACE, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM,

Case: 18-2196

Document: 34 Page: 2 Filed: 04/10/2019

KHAN V. UNITE]) STATES

Appellant Karen Khan filed a combined petition for
panel rehearing and rehearing en bane. The petition was
referred to the panel that heard the appeal, and thereafter
the petition for rehearing en bane was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT Is ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en bane is denied.
The mandate of the court will issue on April 17, 2019.
FOR THE COURT

April 10, 2019
Date

1sf Peter R. Markateiner

Peter R. Marksteiner
Clerk of Court

NOTE: This disposition is nonprecedential.

for the jeberal Circuit
KAREN KHAN,
Plaintiff-Appellant
V.

UNITED STATES,
Defendant-Appellee
2018-2196

Appeal from the United States Court of Federal Claims
in No. 1:18-cv-00609-CFL, Judge Charles F. Lettow.

Decided: February 5, 2019
KAREN KHAN, Poughkeepsie, NY, pro Se.
ALISON VIcKS, Commercial Litigation Branch, Civil Division, United States Department of Justice, Washington,
DC, for defendant-appellee. Also represented by JOSEPH H.
HUNT, ROBERT EDWARD KIRSCHMAN, JR., PATRICIA M.
McCARTIw.

Before MOORE, TARANT0, and CHEN, Circuit Judges.

KHAN v. UNITED STATES

2

PER CuluArvI.

Karen Khan seeks review of a judgment by the U.S.
Court of Federal Claims (Claims Court) granting the Government's motion to dismiss Ms. Khan's complaint for lack
of jurisdiction and failure to state a claim. J.A. 2. Ms.
Khan's complaint alleged violations under the Civil Rights
Act (42 U.S.C. §§ 1985, 1986), the Fifth and Fourteenth
Amendments of the U.S. Constitution, and the Racketeer
Influenced and Corrupt Organizations Act (RICO). See
J.A. 103-50. Because the Claims Court properly granted
the Government's motion, we affirm.
BACKGROUND

Ms. Khan is an attorney admitted to the bar of the
State of New York and the U.S. District Court for the
Southern District of New York (S.D.N.Y.). Appellant Op.
Br. at 2. In April 2018, Ms. Khan filed an action in the
Claims Court alleging, inter alia, conspiracy for human
trafficking for the purpose of impeding, hindering, obstructing, and defeating the due course of justice with the
intent to deny Ms. Khan the equal protection of the laws.
J.A. 103. These allegations were based in part on "domestic violence" actions taken by the Supreme Court of the
State of New York, Duchess County, in handling a divorce
proceeding of one of Ms. Khan's clients. J.A. 104-06. Ms.
Khan alleged that after these actions took place, she and
her client approached the U.S. Department of Justice
(DOJ), Civil Rights Division in 2011 and filed a complaint.
J.A. 107. Ms. Khan alleged that the DOJ and the Federal
Bureau of Investigation (FBI) have since been interfering
with her personal and professional life, including her law
practice. See J.A. 107-50. Ms. Khan detailed the alleged
actions taken by the FBI and DOJ—including telephone
calls, internet communications, and personal visits—
throughout the remainder of her complaint. Id. Ms. Khan
sought $30 million in damages, as well as "[a]ny and all
other relief to which [she] is entitled." J.A. 150.

3

KEiANv. UNITED STATES

The Government moved to dismiss Ms. Khan's complaint pursuant to Rules 12(b)(1) and 12(b)(6) of the Rules
of the Court of Federal Claims (RCFC). See J.A. 10-28.
The Claims Court granted the Government's motion,
agreeing that Ms. Khan's allegations, though detailed, "do
not link explicitly to claims for relief under any money
mandating source of law." J.A. 2-3. The Claims Court concluded that Ms. Khan's assertions do not establish all of the
material elements necessary to sustain recovery under any
viable legal theory, and therefore fail to state a claim. J.A.
3.
The Claims Court also concluded that the federal district courts, not the Claims Court, have jurisdiction over
civil-rights and RICO claims. Id. The Claims Court then
rejected Ms. Khan's transfer request to S.D.N.Y., finding
that the transfer would not be in the interests of justice,
given Ms. Khan's failure to state any plausible claim for
relief. Id.
Ms. Khan appeals. We have jurisdiction pursuant to
28 U.S.C. § 1295(a)(3).
DISCUSSION

"This court reviews de novo whether the Court of Federal Claims possessed jurisdiction and whether the Court
of Federal Claims properly dismissed for failure to state a
claim upon which relief can be granted, as both are questions of law." Wheeler v. United States, 11 F.3d 156, 158
(Fed. Cir. 1993).
"Subject matter jurisdiction is a threshold requirement
for a court's power to exercise jurisdiction over a case.
Dow Jones & Co. v. Ablaise Ltd., 606 F.3d 1338, 1348 (Fed.
Cir. 2010). "The Tucker Act
'is itself only a jurisdictional statute; it does not create any substantive right enforceable against the United States for money damages."
James v. Caldera, 159 F.3d 573, 580 (Fed. Cir. 1998) (quoting United States v. Testan, 424 U.S. 392, 398 (1976))
.

.

.

.

.

4

KHAN v. 'UNITED STATES

(internal quotation marks omitted). Thus, "[i]n order to invoke jurisdiction under the Tucker Act, a plaintiff must
point to a substantive right to money damages against the
United States." Hamlet v. United States, 63 F.3d 1097,
1101 (Fed. Cir. 1995). "What this means is that a Tucker
Act plaintiff must assert a claim under a separate moneymandating constitutional provision, statute, or regulation,
the violation of which supports a claim for damages against
the United States." James, 159 F.3d at 580.
The Claims Court lacks jurisdiction over claims under
the Civil Rights Act, including provisions 42 U.S.C. §§ 1985
and 1986. See 28 U.S.C. § 1343(a) (vesting original jurisdiction in federal "district courts"); see also Searles V.
United States, 88 Fed. Cl. 801, 804 (2009). The Claims
Court likewise lacks jurisdiction over Ms. Khan's constitutional claims because they are not based on money-mandating provisions. LeBlanc v. United States, 50 F.3d 1025,
1028 (Fed. Cir. 1995) (finding allegations of violations "under the Due Process Clauses of the Fifth and Fourteenth
Amendments" and "the Equal Protection Clause of the
Fourteenth Amendment" not to be "a sufficient basis for jurisdiction because they do not mandate payment of money
by the government"). The Claims Court also lacks jurisdiction over RICO claims. See 18 U.S.C. § 1965(a) ("Any civil
action or proceeding under this chapter against any person
may be instituted in the district court of the United States
for any district in which such person resides, is found, has
an agent, or transacts his affairs."); see also Hufford v.
United States, 87 Fed. Cl. 696, 702 (2009) ("This court has
no jurisdiction over RICO claims... ."). Because Ms. Khan
did not plead any claims over which the Claims Court has
jurisdiction, we find that the Claims Court properly dismissed Ms. Khan's complaint under RCFC 12(b)(1).
The Claims Court also properly rejected Ms. Khan's request to transfer the case to S.D.N.Y. When courts lack
jurisdiction, 28 U.S.C. § 1631 requires them to transfer the
case to any other court in which the action could have been

KHAN v. UNITED STATES

5

brought at the time it was filed or noticed, "if it is in the
interest of justice." While Ms. Khan's complaint could have
been filed in S.D.N.Y., the Claims Court correctly concluded that it would not have been in the interest of justice
to transfer the case.
In addition to dismissing for lack of jurisdiction, the
Claims Court scrutinized Ms. Khan's complaint and concluded that it must be dismissed for failure to state a plausible claim. "To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as true, to
'state a claim to relief that is plausible on its face." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Ati.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)); accord
Twombly, 550 U.S. at 555 ("Factual allegations must be
enough to raise a right to relief above the speculative level,
on the assumption that all the allegations in the complaint
are true (even if doubtful in fact)." (internal citation omitted)). "A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged." Iqbal, 556 U.S. at 678. "The plausibility standard is not akin to a 'probability requirement,'
but it asks for more than a sheer possibility that a defendant has acted unlawfully." Id. (quoting Twombly, 550 U.S.
at 556).
Under those standards, the Claims Court properly concluded that Ms. Khan has not pleaded any facts that support her allegations against the Government. For example,
Ms. Khan alleges that the "FBI has used different channels
[to] conveyfl its perversions to [Ms. Khan] to deny her
equal protection of the laws." Appellant Op. Br. at 19. Ms.
Khan cites to emails and photographs as support for her
allegations. E.g., id. at 19-21. But none of these documents evidences any communication by the Government.
See, e.g., J.A. 469, 471, 473-76, 488, 502-05, 531-32, 54352, 576-86. The remainder of the evidence cited by Ms.

KHAN v. UNITED STATES

6

Khan similarly fails to establish any plausible basis for her
allegations.
Ms. Khan's complaint, in fact, falls far short of complying with the "plausibility" standard set out by the Supreme
Court in Twombly and Iqbal, and Ms. Khan has advanced
no basis for thinking that the deficiency could be cured by
amendment. In these circumstances, we see no error in the
Claims Court's ruling that it would not have been in the
interest of justice to transfer this case to S.D.N.Y. See Galloway Farms, Inc. v. United States, 834 F.2d 998, 1000-01
(Fed. Cir. 1987).
We have reviewed Ms. Khan's other arguments, but
find them unpersuasive. Accordingly, we affirm the Claims
Court's judgment granting the Government's motion to dismiss under RCFC 12(b)(1) and denying the request to
transfer.
AFFIRMED

Statement of the Case
Summary of the Background of the Case
Petitioner/Plaintiff, pro Se, is an attorney, admitted to the bar of the State
of New York, since 2005, and to the U.S. Court, Southern District of New York,
since 2014. Since 2010 and 2011, FBI has been engaged in disruptive and
obstructive activities towards Plaintiff's person and property, including her law
practice. These disruptive activities are in furtherance of its conspiracy to
impede, hinder, defeat, and obstruct the due court of justice, with intent to deny
Plaintiff equal protection of the laws. Plaintiff has been deprived of life, liberty,
and property because of FBI's continued interferences in her personal and
professional life. Plaintiff and her client, in January 2011, flied an initial
complaint with Civil Rights Division, DOJ, for a blatant and egregious violation
of their civil rights, by the State of New York. Prior to filing a complaint with
DOJ, Plaintiff and her client, had also filed a complaint with the NYS Attorney
General,' in 2010. An expert on matrimonial and civil rights cases, in May 2011,
wrote a letter to DOJ strongly corroborating Plaintiff and her client's Complaint.
Plaintiff also filed separate Complaint[s] with DOJ in 2015. The premise of the
Complaints was blatant and gross violations of the Fourteenth Amendment, by
New York State Courts. Plaintiff and her client had requested DOJ, as relief, a
reversal of the New York State Court of Appeals, lawless, capricious and

Eric Schneiderman resigned from his office, within hours, after four women accused him of physical
abuse, in May 2018. This story was published by 'The New Yorker' on May 7, 2018. [Public Information
accessible via internet search]
1

1136

arbitrary, decision dated February 23, 2010, as it is an ongoing violation of
federal law, until reversed.
Supreme Court Dutchess County, New York, perpetuated domestic
violence against Plaintiffs client while also denying Plaintiff equal protection of
the laws, in her lawful representation of her client. It amongst other factors,
perpetrated an unconscionable stipulation, upon Plaintiffs client, under threat
of loss of custody and incarceration. Plaintiffs client and her children had been
victims of domestic violence which was corroborated by a Social Services
indicated report. Plaintiffs client filed a Motion to set aside the coerced
stipulation. Supreme Court lawlessly imposed monetary sanctions on the
Plaintiff and her client, while making false accusations against Plaintiff and her
client. Plaintiff and her client appealed. A separate Amicus Curiae brief, by
Schiff Hardin LLP., was also filed, at the appellate level. The New York State
Court of Appeals, through a lawless, capricious, and arbitrary decision dated
February 23, 2010, upheld these monetary sanctions, in passionate defense of
'perpetrators of domestic violence.'
All through these years Plaintiff has endured a cycle of ongoing
harassments, disruptions and obstructions, perpetuated by FBI, to punish and
deter Plaintiff for having pursued and for continuing to pursue her client's and
her rights, including at DOJ. As though this cycle of abuse in itself was
insufficient, DOJ and FBI in furtherance of its conspiracy to impede, hinder,

2 1 36

defeat and obstruct the due course of justice engaged in human trafficking,2 with
intent to deny Plaintiff equal protection of the laws. Two FBI agents, have
personally met with Plaintiff, attempting to enter into a relationship with her.
Plaintiff has stated that though she does not consider unethical per Se, these
agents meeting up with her, she cannot be coerced into any relationship [s].
Plaintiff has several times and through several means conveyed to DOJ and FBI
that she is not interested in a relationship with any person or agent[s] that FBI,
including through its unlawful, coercive and cheap tactics, aspires for Plaintiff
to enter in-- including the two named agents who met with her-- these did not
understand the language of politeness, and have persisted in their unlawful and
perverted activities. Plaintiff took a stand against injustice perpetuated by the
New York State and it also resulted in exposing FBI's lawlessness and
perversions.
Complaint, in the present case, elucidates FBI's lawlessness, which
includes obstructions and interceptions in Plaintiffs law practice/business,
harassing phone calls, emails and messages sent to her through various
channels-- and are in conspiracy between FBI and DOJ, FBI within the FBI and
FBI and private church personnel. Plaintiff sustained, in her person and
property, severe injuries, including deprivation of her constitutional rights, and

The term, Human Trafficking, has been used in the Complaint to mean, "the illegal practice of
procuring or trading in human beings for the purpose of prostitution, forced labor, or other forms of
exploitation." Any coercive conduct or contact, including through injurious manipulations, to capture
a woman in a relationship [s] is tantamount to human trafficking and prostitution of a woman within
or without marriage.
2

3136

to an even greater extend, in 2017 into 2018 and current. Myra Armstead, a
controlling member of Faith Assembly of God Church, informed Plaintiff that
"intelligence" is involved. Diedre Hays, whom Plaintiff met at a New York State
Women's Bar Association conference, in 2015, informed Plaintiff, "FBI is
chasing you."
Plaintiff, on November 15, 2016, filed a Complaint against FBI including
FBI agent Michael D. Rourke, with Civil Rights Criminal Investigation Unit.
Plaintiff via email dated March 9, 2017, requested Jeffrey Veltri-Chief, Civil
Rights, Criminal Investigation Unit [FBI], to meet up with her. Plaintiff
received no response from FBI Chief, or an interest in addressing Plaintiffs
concerns. To the contrary, FBI has continued its unlawful activities and
perversions.
Plaintiff contacted U.S. Representatives and a Senator, in March 2017,
and on request from Senator's office contacted some organizations, for
assistance in this matter, but FBI intercepted. [Discovery will reveal these
interceptions].
The named agents and those aligned with them have freely conducted their
unlawful and disruptive activities, through FBI's internal policy, the Counter
Intelligence Program, COINTELPRO.
The methodical and repetitive manner in which these invidiously
discriminatory acts have been perpetuated, are circumstantial evidence of FBI's
"involvement" and "chase" of a woman to impede, hinder, defeat and obstruct

436

the due course of justice, through their perverted control and injurious
manipulations, with intent to deny, including the Plaintiff, equal protection of
the laws. These are desperately attempting to preserve the status quo of their
corruption and perversions, including against the Plaintiff. Plaintiff is
convinced that she is not FBI's only woman victim.
Statement of the Case
Plaintiff filed a Constitutional, Civil Rights and a RICO claim with the
U.S. Court of Federal Claims on April 26, 2018. Plaintiff also filed a Motion for
Injunction. Defendant filed a Motion for Leave to Respond to Plaintiffs Motion
for Temporary and Permanent Injunction Concurrent with its Response to
Plaintiffs Complaint. Defendant then filed a Motion to Dismiss, under USCFC
Rules 12 (b) (1) and 12 (b) (6). Defendant's Motion to Dismiss indicated that it
was on notice of a potential Civil Rights, Constitutional and a RICO action.
Further, Claims Court Order dated July 12, 2018, presents that the Court was
on notice of a Constitutional, Civil Rights and a RICO action. Plaintiffs response
to the Defendant's Motion to Dismiss elucidated Defendant's fabrications of the
true facts of the case. Defendant filed a reply and stated, "...and to the extent
that there were any errors in the United States recital or summary of Ms.
Khan's claims, the United States regrets those errors, although they were
inadvertent," thereby invoking Sovereign Immunity for its fabrication of the
true facts presented in the Complaint. After the Claims Court issued its said
Order, Plaintiff filed a timely appeal with the Federal Circuit. Defendant at the

5 1 36

Federal Circuit contended, "none of Ms. Khan's claims are based on a moneymandating statute or contract; instead, they are based on the civil rights
statutes, torts and civil RICO..." Plaintiff, however, based her claims on moneymandating statutes and further asserted that Claims Court has concurrent
jurisdiction with a U.S. district court, under the Tucker Act, over a RICO action
based upon employment contract[s] between the Federal government and its
employees, as discussed under next section "reasons for granting the Petition..."
Furthermore, Plaintiffs briefs at the Federal Circuit highlighted the dangerous
class-based invidiously discriminatory animus that exists against women, in
this Country. Plaintiff also filed a Memorandum in Lieu of an Oral Argument,
requesting the Federal Circuit to take judicial notice of certain recent news
coverage on women speaking out against sexual harassments, in 2017 into 2018,
as well as documentaries and an article elucidating the class-based animus
against women, in State courts. Also included in the list was a link to Charlie
Rose talk show of 2017, discussing the rise of prostitution in the USA, in the
1970's, and misogyny that currently exists in the American culture, particularly
with the rise of pornography. Federal Circuit issued an adverse decision to the
Plaintiff, dated February 5, 2019, based not on the law but instead on
lawlessness. It inaccurately selected to base the true allegations of human
trafficking on the NYS Supreme Court judge, to wrongfully vindicate the FBI.
Federal Circuit also misapprehended Claims Court Order, dated July 12, 2018,
and thus imputed its lawlessness on the Claims Court. Claims Court had

6136

provided a road map to the Plaintiff, on how to pursue her appeal. Plaintiff
provides hereunder a few examples, of many, as basis for her assertion.
Claims Court favorably cited Papasan v Allain, 478 U.S. 265 (1986), which
sets two astounding precedents. First, ongoing constitutional violations
equal protection of laws]

--

--

[of

is precisely the type of continuing violation for which

a remedy may permissibly be fashioned; Second, an Appeals Court right up to
the U.S. Supreme Court, is not precluded in its review of a complaint from
taking judicial notice of relevant information on its own motion. [Although this
case comes to us on a motion to dismiss under FRCP 12(b), we are not precluded
in our review of the complaint from taking notice of items in the public record,...
At Footnote 1].
Claims Court determined that Plaintiff has set out her Complaint in
"considerable detail" whereby upholding the Complaint as well pleaded, but
then in contradiction to its first determination declined relief on two grounds a).
These allegations do not link explicitly to claims for relief under any money
mandating source of law, and b). Her assertions do not establish all the material
elements necessary to sustain recovery under some viable legal theory and
therefore fails to state a claim. Claims Court for Plaintiff gave these two grounds
for her to establish otherwise, through her briefs, at the appellate level. Plaintiff,
through her briefs at the Federal Circuit, followed the Claims Court road map,
closely.

7136

Claims Court cited Ingram v. Madison Square Garden Center, Inc., 482 F. Supp.
414 (S.D.N.Y. 1979) [Civil Rights] and 4 K & D Corp. v. Concierge Auctions, LLC, 2
F. Supp. 3d 525 (S.D.N.Y. 2014) [RICO] to indicate that district courts can hear Civil
Rights and RICO claims, but neither of these two cases establish a U.S. district
court's exclusive jurisdiction over Civil Rights and RICO claims. Ingram, establishes
that when plaintiffs allege a continuous and present practice of discrimination rather
than a single, isolated act, the statute of limitations is no bar. Further, of utmost
importance, Ingram held that a Plaintiff can maintain two actions, under two
statutes, out of the same set of facts, when the two statutes are completely
independent. Whereas, Concierge Auctions provides a requirement for presentation,
on appeal, i.e. to draw a distinction between the Federal Government and its
employees. Further, Concierge Auctions, held that to constitute a mail or wire fraud
violation, it is not necessary to show that defendants actually mailed or wired
anything themselves; it is sufficient if they caused it to be done.
Claims Court reason for its lack of jurisdiction, over a RICO claim, was the
language of 18 U.S.C. 1964 (c), which it incorrectly cited, "...which specify that
district courts shall have jurisdiction over civil suits by persons injured by
violations of RICO." J.A. 3 at footnote 3.
Further, Federal Circuit in an egregious error, weighed evidence against
Plaintiff when it stated, "...Ms. Khan's complaint, in fact, falls short of the
"plausibility" standard set out by the Supreme Court in Twombly and Iqbal, and
Ms. Khan has advanced no basis for thinking that the deficiency could be cured

BE

by amendment" [at 6]. Plaintiff filed a timely Petition for a Rehearing and a
Rehearing En Banc with the Federal Circuit. Petition stated that every part of
the Complaint, in the present case, corroborates the other and the referenced
documents, and vice versa. In addition, at least two persons had also informed
Plaintiff, that intelligence is involved, and FBI is chasing her. Furthermore, of
utmost importance, though Plaintiff had anticipated making further
corroborations through discovery, she provided the Federal Circuit with
additional astounding basis for issuing a decision which will abolish the
organized and systemic class-based invidiously discriminatory animus against
women [or in other words "America's tribal culture"], in this Country, 3 as
follows;
. Plaintiff filed a Complaint, in May 2017, with the Office of the U.N.

High Commissioner for Human Rights, pursuant to Human Rights
Council Resolution 5/1 on the basis of U.S. Government's gross
failure to fulfill its Human Rights obligations and commitments
under International law and its Federal Laws. Plaintiff requested
the Commission to appoint a highly qualified expert, including to
monitor FBI's emails to Plaintiff's email accounts, i.e.
karenkhan@kknylawfirm.org and karenkhanlaw@hotmail.com. A
highly qualified expert is continuing to monitor FBI's emails to her
two email accounts, since 2017.

Plaintiff requested the Federal Circuit to address the issues "in favor of this Country" based upon
her understanding that government corruption cannot be in any country's favor.

9136

e.

. Pursuant to Federal Rules of Evidence, Rule 614, a Federal Court

may call a witness on its own or at a party's request. Plaintiff is
aware, through various emails she has received, that she has at least
a couple of friends4 in the FBI, of which one is Frank Newcomer.
FBI agents will testify, when given the necessary safeguards and
protections, by the Court.
. Evidence cannot be sealed in a RICO or a Civil Rights action.

Federal Circuit issued an En Banc Order dated April 10, 2019, denying
Plaintiffs Petition for a Rehearing and Rehearing En Bane, upon consideration.
Federal Circuit completely and lawlessly denied Plaintiff equal protection of the
laws, based upon its class-based animus against women-- that there were
women judges involved does not by itself bespeak of non-bias against women.
Including the present case elucidates that women, in this Country, play a vital
role in perpetuation of the organized and systemic class-based invidiously
discriminatory animus against women. It is not the Plaintiff who has attacked
the Government, but rather it is the Government which has consistently
victimized/attacked the Plaintiff, through FBI's perversions and lawlessness, for
taking a lawful stand for herself and other women.

Plaintiff's refers to these agents as her 'friends,' because these have not participated in FBI's
lawlessness and perversions, against the Plaintiff. These 'friend' agents will no doubt, stand with the
Plaintiff, when called by the Court, as witnesses.
'

10 1 36

